Li

it9-13

No.

In the
Supreme Court of the United States
immoro • eviwigN•

.

Of: 7 1. 4

BAHAR MIKHAK,
Petitioner,
V.
UNIVERSITY OF PHOENIX (U013),
Respondent.

Application for An Extension of Time Within Which
to File Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
BAHAR MIKHAK
25595 COMPTON COURT
APT 103
HAYWARD, CA 94544
(617)784-1755
MIKHAKB@HOTMAIL.COM

ECEIVED
NOV 1 4 2019
'51FREEmOEFCV5RCrU.S
R.

Bahar Mikhak

In the Name of GOD, Most Gracious, Most Merciful

10/31/19

Dear Honorable Justice Kagan,
I am writing to request a 60-day time extension, until January 25, 2020, to file my
Petition for a Writ of Certiorari. My request is in compliance with the Supreme Court
Rule 13.5 because it is justified and does not exceed 60 days.
The original due date for my Petition for a Writ of Certiorari is November 26, 2019
because the Ninth Circuit issued its decision on my Petition for Panel Rehearing and
Rehearing en banc on August 28, 2019 (dkt. 65) and issued its initial decision on my
appeal on April 24, 2019 (dkt. 53-1). The length of the requested extension is 60 days
from the due date of November 26, 2019.
Supporting evidence for the reason why an extension is necessary
Reason #1: I am currently a pro se petitioner so it will take me much longer to
write a persuasive legal petition than those who are formally trained and
experienced.
Reason #2: I spent the first 30 days out of the 90 days allowed to try to make
sense of my setback, submit to GOD's will, and get back on track in my pursuit of
justice. I contacted as many attorneys as possible and reached out to lawyer
referral services, Bar Associations, and litigation clinics. Sadly, I was unable to
hire an affordable attorney that specializes in the US Supreme Court to fully
represent me (email evidence and phone call logs are available upon request).
Reason #3: Because of my concern for my senior parents, I may need to travel to
Massachusetts to stay with and care for them. Sadly, my 86-year old father, Dr.
Ahmad Mikhak, had a heart attack on 10/15/19. Please see enclosed proof that
he was admitted to Lahey Health Hospital in Burlington, MA to receive cardiac
catherization, coronary angiography, and coronary intervention. For security
purposes, I have redacted his month and day of birth for filing purposes.
Reason #4: I need to prioritize my health per the advice of my doctor (Dr.
Alejandro Diaz). The stress of being a pro se appellant has taken a toll on my
health. Please see enclosed my doctor's note stating that, I am at risk of
developing stress related health problems. The additional 60 days will help me
prepare my petition without compromising my health.
Reason #5: I also need to prioritize my faculty job search to help pay for my living
expenses and legal fees to a limited-scope attorney consultant (if I can find one).
Finally, I have served this motion to the Office Managing Shareholder (Mr. Eric
Bellafronto) at Littler Mendelson law firm. I recently learned that the opposing counsel
(Ms. Neda Dal Cielo) and her co-counsel (Mr. Cooper Spinelli) for the University of
Phoenix both have left the law firm and it's still not clear who will be handling my case.
Please see enclosed the Certificate of Service. Thank you in advance.
With kind regards,
Bahar Mikhak
1

